TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Suspended E-File Providers Were Not
                 Adequately Assisted With Reinstatement of
                        Electronic Filing Privileges


                                           July 10, 2007

                              Reference Number: 2007-40-114




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  July 10, 2007


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report –Suspended E-File Providers Were Not Adequately
                               Assisted With Reinstatement of Electronic Filing Privileges
                               (Audit #200740038)

 This report presents the results of our review to determine why the Internal Revenue Service
 (IRS) experienced a backlog of suspended electronic-file Providers (hereafter referred to as e-file
 Providers or Providers) prior to the start of the 2007 Filing Season.1 The audit was initiated
 because of a complaint received by the Treasury Inspector General for Tax Administration
 regarding the timeliness of IRS assistance in reinstating e-file Providers that had been suspended
 because of noncompliance with the U.S. Individual Income Tax Declaration for an IRS e-file
 Return (Form 8453) submission requirements.2

 Impact on the Taxpayer
 E-file Providers originate the electronic submission of income tax returns to the IRS. In
 October 2006, the IRS suspended 12,588 Providers for not submitting required Forms 8453. The
 suspensions created a significant backlog of Providers, and the IRS was not adequately prepared
 to assist them with the reinstatement of their electronic filing privileges. This could have
 prevented Providers from submitting electronic tax returns and required them and/or taxpayers to
 file paper tax returns.



 1
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
 2
  To ensure electronic tax returns comply with the law, the IRS created Form 8453 and a Personal Identification
 Number; the IRS allows individual taxpayers to sign their electronic tax returns via a Form 8453 or a Personal
 Identification Number.
                      Suspended E-File Providers Were Not Adequately Assisted
                         With Reinstatement of Electronic Filing Privileges




Synopsis
On October 30, 2006, the IRS suspended 12,588 e-file Providers for not submitting the required
Forms 8453. The suspensions created a significant backlog of Providers who needed IRS
assistance to be reinstated before January 12, 2007 (the date the IRS began accepting electronic
tax returns). This backlog resulted when Warning Letters (Letter 2750) and Suspension Letters
(Letter 2752) were issued late and the IRS was not adequately prepared to assist Providers with
reinstatement.
The IRS had not successfully issued Suspension                  Problems with the letter
Letters or suspended e-file Providers that had not          generation program delayed the
submitted Forms 8453 since Calendar Year 2002.                mailings of the Warning and
                                                                  Suspension Letters.
Once the Letters were issued and Providers were
suspended, IRS assistors were often unable to access
the primary computer system (the Employee User Portal) needed to reinstate suspended
                                       Providers because the system was unavailable. E-file
                                       Providers that contacted the IRS for assistance with
    The primary computer system        reinstatement experienced longer calls and longer hold
        necessary to reinstate         times than during the same period last year.3 The total
   suspended e-file Providers was      impact of the unavailability of the Employee User Portal
         often not available.
                                       during October 2006 through February 2007 was a loss of
                                       more than 18,000 hours of productivity.
In addition, IRS assistors noted that a number of e-file Providers stated they had not
received Warning and/or Suspension Letters, and procedures for working undelivered
Warning and Suspension Letters were not consistent. The e-file Units in the
Andover, Massachusetts, and Austin, Texas, Campuses4 did not follow the same process when
Letters were returned as undeliverable, and guidelines for working undeliverable correspondence
from Providers were not consistent with guidelines for handling undelivered Warning and
Suspension Letters. Although the Andover Campus e-file Unit attempted to contact Providers to
obtain updated addresses, the Austin Campus Unit did not.
Further, the Austin Campus was closed for 2 business days because of weather at the beginning
of the 2007 Filing Season when it was answering inquiries and working appeals from the
suspended e-file Providers. As of February 20, 2007, the majority of the over 9,900 appeals for
reinstatement had been worked by the Andover and Austin Campus e-file Units. The Austin
Campus Unit continued to receive appeals after February 20, 2007, and worked these as
received.

3
 October 2005 through January 2006.
4
 Campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct errors,
and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                                   2
                      Suspended E-File Providers Were Not Adequately Assisted
                         With Reinstatement of Electronic Filing Privileges



Issues relating to Form 8453 filing requirements (including processing the Forms, generating
Warning letters to e-file Providers, suspending Providers, and processing appeals) would be
addressed if, as we had recommended in a September 2006 report,5 the IRS mandated the use of
a Personal Identification Number. Implementation of this recommendation would have
eliminated the required use of the Form 8453. We had calculated the IRS could save
$1.83 million in processing costs (cost savings calculation did not include mailouts, assistance
with answering questions, and/or working appeals) if Form 8453 was eliminated.

Recommendations
We recommended the Commissioner, Wage and Investment Division, reconsider eliminating the
use of Form 8453 as a signature document and mandate the use of a Personal Identification
Number. At a minimum, this should be required for returns prepared at Volunteer Income Tax
Assistance sites.6 If the Commissioner, Wage and Investment Division, disagreed with
eliminating the Form 8453, we recommended the Commissioner:
    •   Ensure Warning and Suspension Letters are issued timely.
    •   Continue to monitor the availability of the Employee User Portal and continue raising
        concerns about system availability to representatives from the Modernization and
        Information Technology Services organization.
    •   Revise guidelines for handling undeliverable Warning and Suspension Letters to require
        assistors to attempt to contact e-file Providers by telephone to obtain new addresses.

Response
IRS management agreed with our recommendation to eliminate the use of Form 8453 as a
signature document and mandate the use of a Personal Identification Number. They will initially
develop a comprehensive action plan to pursue mandating the use of Personal Identification
Numbers by Electronic Return Originators for the 2008 Filing Season. They will also evaluate
mandating Personal Identification Number usage by online filers in the 2009 Filing Season. The
other recommendations were contingent upon whether the IRS agreed to Recommendation 1.
They are no longer applicable because management has agreed to eliminate the use of
Form 8453 as a signature document. Management’s complete response to the draft report is
included as Appendix V.


5
  Requiring Personal Identification Numbers for Electronically Filed Returns Could Improve Tax Administration
and Reduce Costs (Reference Number 2006-30-160, dated September 20, 2006).
6
  The IRS Volunteer Income Tax Assistance Program originated in 1969 and provides no-cost Federal tax return
preparation and electronic filing to specific underserved segments of individual taxpayers.
                                                                                                                3
                  Suspended E-File Providers Were Not Adequately Assisted
                     With Reinstatement of Electronic Filing Privileges



Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




                                                                                              4
                          Suspended E-File Providers Were Not Adequately Assisted
                             With Reinstatement of Electronic Filing Privileges




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Internal Revenue Service Suspended E-File Providers and
          Was Not Adequately Prepared to Assist With Reinstatement ......................Page 3
                    Recommendations 1 through 4: ................................................ Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – U.S. Individual Income Tax Declaration for an IRS
          e-file Return (Form 8453) ............................................................................Page 15
          Appendix V – Management’s Response to the Draft Report .......................Page 16
                   Suspended E-File Providers Were Not Adequately Assisted
                      With Reinstatement of Electronic Filing Privileges




                                 Abbreviations

e-file Provider;          Electronic-file Provider
Provider
IRS                       Internal Revenue Service
PIN                       Personal Identification Number
                       Suspended E-File Providers Were Not Adequately Assisted
                          With Reinstatement of Electronic Filing Privileges




                                            Background

The Internal Revenue Service (IRS) introduced electronic filing in 1986. In Fiscal Year 2006,
more than 73 million tax returns were electronically filed. Individual taxpayers may file their tax
returns electronically but must still provide a signature on the tax returns.1 The Internal Revenue
Code2 and IRS tax publications clearly state that a tax return is not considered authentic or
complete until a signature is received. To ensure electronic tax returns comply with the law, the
IRS created the U.S. Individual Income Tax Declaration for an IRS e-file Return (Form 8453)3
and a Personal Identification Number (PIN). The IRS allows individual taxpayers to sign their
electronic tax returns via a Form 8453 or a PIN.
As of October 2006, there were 176,373 active                  Electronic-file Providers are
electronic-file Providers (hereafter referred to as            required to send a signature
e-file Providers or Providers) that originate the                  form to the IRS within
electronic submission of income tax returns to the IRS       3 business days of an electronic
by submitting income tax returns that are either prepared     tax return’s acceptance by the
                                                                            IRS.
by the Providers or collected from taxpayers. Providers
are required to submit signed Forms 8453 to the IRS
within 3 business days of the returns’ acceptance by the IRS. Depending on where the
taxpayers reside, the Forms 8453 are sent to the Submission Processing Campuses4 in
Andover, Massachusetts, or Austin, Texas.
Upon receipt of Forms 8453, IRS employees input the information to a database that matches
the Forms 8453 to the related electronic tax returns. The IRS tracks e-file Providers that have
not timely submitted their Forms 8453 and issues reminder letters to those that have
2 or more percent missing Forms 8453. Providers that are not compliant in filing Forms 8453
will be suspended for 2 years (i.e., they are unable to file electronic tax returns) and have the
right to appeal the suspensions.
In January 2007, the Treasury Inspector General for Tax                 The Treasury Inspector General
Administration received a complaint regarding the                       for Tax Administration received
timeliness of IRS assistance in reinstating e-file                        a complaint alleging that the
Providers that had been suspended because of                              IRS was not timely assisting
noncompliance with Form 8453 submission                                    suspended e-file Providers.



1
  Individual taxpayers file a U.S. Individual Income Tax Return (Form 1040).
2
  Internal Revenue Code Section 6061.
3
  See Appendix IV for a copy of Form 8453.
4
  Campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct errors,
and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                           Page 1
                         Suspended E-File Providers Were Not Adequately Assisted
                            With Reinstatement of Electronic Filing Privileges



requirements. The complainant was concerned about how this might affect both the IRS and the
Providers during the 2007 Filing Season.5
This review was performed at the Customer Account Services office and the Customer
Assistance, Relationships, and Education office in Atlanta, Georgia; the Electronic Tax
Administration function and the Modernization and Information Technology Services
organization in Washington, D.C.; and the e-file Units in the Andover and Austin Submission
Processing Campuses during the period January to March 2007. The audit was conducted in
accordance with Government Auditing Standards. Detailed information on our audit objective,
scope, and methodology are presented in Appendix I. Major contributors to the report are listed
in Appendix II.




5
    The filing season is the period from January through mid-April when most individual income tax returns are filed.
                                                                                                              Page 2
                          Suspended E-File Providers Were Not Adequately Assisted
                             With Reinstatement of Electronic Filing Privileges




                                          Results of Review

The Internal Revenue Service Suspended E-File Providers and Was
Not Adequately Prepared to Assist With Reinstatement
On October 30, 2006, the IRS suspended 12,588 e-file Providers for not submitting the required
Forms 8453. The IRS had not successfully issued Suspension Letters or suspended the Providers
who had not submitted Forms 8453 since Calendar Year 2002. The October 2006 suspensions
created a significant backlog of Providers who needed IRS assistance to be reinstated before
                                              January 12, 2007 (the date the IRS began
                                              accepting electronic tax returns). This backlog
   The backlog resulted when Letters were
        issued late and the IRS was not
                                              resulted when Warning Letters (Letter 2750)6 and
         adequately prepared to assist        Suspension Letters (Letter 2752) were issued late
      e-file Providers with reinstatement.    and the IRS was not adequately prepared to assist
                                              Providers with reinstatement.
Also, the Austin Campus was closed for 2 business days because of weather at the beginning of
the 2007 Filing Season. This was when the IRS was answering inquiries and working appeals
from the suspended e-file Providers. As of February 20, 2007, the majority of the over
9,900 appeals for reinstatement had been worked by the e-file Units in the Andover and Austin
Campuses. The Austin Campus e-file Unit continued to receive appeals after February 20, 2007,
and worked these as received.
Had the IRS been unable to reinstate the e-file Providers, they would have been unable to submit
electronic tax returns. This could have required them and/or taxpayers to file paper tax returns.
Not only would this be a burden to the Providers and the taxpayers, but the IRS would have had
to process more paper tax returns at an additional cost.

Delays in notifying e-file Providers they were about to be and/or had been
suspended caused a backlog of Providers asking for reinstatement
IRS guidelines require that e-file Providers receive a Warning Letter if 2 or more percent of their
Forms 8453 are missing. These Letters are to be sent between July 15 and July 31 of each year.
If a reply to the Warning Letter is not received and the number of Forms 8453 missing or
unsigned is 2 or more percent, the guidelines require that a Suspension Letter be issued to the
Provider between September 15 and September 30.



6
    In total, 46 percent of the 28,649 Warning Letters were issued late.
                                                                                            Page 3
                        Suspended E-File Providers Were Not Adequately Assisted
                           With Reinstatement of Electronic Filing Privileges



In Calendar Year 2006, the Andover Campus mailed the Warning Letters late because there were
formatting problems with the file used to generate the Letters. In addition, a second mailing of
the Warning Letters was necessary because the IRS identified e-file Providers whose addresses
were missing from the data extract used to create the first mailing. Figure 1 provides the volume
and actual dates the Warning and Suspension Letters were sent to Providers.
         Figure 1: Volumes and Dates of Warning and Suspension Letters Sent
                             During Calendar Year 2006

                   Warning          Date          Warning            Date         Suspension           Date
     Campus
                    Letter         Mailed          Letter           Mailed          Letter            Mailed

    Andover              8,645     7/21/06                758       9/5/06                 4,561 10/30/06

    Austin             15,546      7/31/06              3,700       9/5/06                 8,458 10/30/06

    Totals             24,191                           4,458                            13,0197
    Source: IRS Submission Processing function, E-Submissions office. The data included in Figure 1 were provided
    by the IRS; the data are presented for perspective only and were not audited.

IRS representatives responsible for testing the Letter Generation Program stated they completed
testing 2 weeks before the Warning Letters were to be generated. The testing included verifying
that the address data file contained the required data fields, Letters were created and matched
layout requirements, and Letter return address headers were accurately spaced and correctly
formatted. The verification also ensured the Program was compatible with formatting and
printing processes.
However, testing did not identify all the problems causing the delays in issuing the Warning
Letters. For example, when the Letter Generation Program was tested, programmers assumed
Warning Letters might need 10 pages to 20 pages of missing Forms 8453 to be attached. Yet
some e-file Providers had over 100 pages of missing Forms 8453. When there were more pages
than the Program was set up to handle, the Program would not function properly and subsequent
Letters were not generating properly.
In addition, when the IRS began receiving responses to its Warning Letter mailout, it had to
delay the mailing of the Suspension Letters until October 30, 2006, to process incoming
Forms 8453. The IRS appropriately wanted to process the Forms 8453 to ensure Suspension
Letters were not sent to e-file Providers that were now compliant. Processing the Forms 8453



7
  A total of 12,588 e-file Providers were suspended, with 431 e-file Providers being suspended by both the Andover
and Austin Campuses. The 431 e-file Providers were authorized to electronically file tax returns at both Campuses;
therefore, they were suspended by both Campuses.
                                                                                                           Page 4
                      Suspended E-File Providers Were Not Adequately Assisted
                         With Reinstatement of Electronic Filing Privileges



involves inputting the information to IRS computers to match the Forms 8453 to the related
electronic tax returns.
Of the 12,588 e-file Providers suspended, 1,140 (9 percent) were associated with a Volunteer
Income Tax Assistance site.8 Oversight of the Volunteer Income Tax Assistance Program is the
responsibility of the IRS Stakeholder Partnerships, Education, and Communication function,
                                      which worked with the Submission Processing function to
    Nine percent of the suspended     determine the process for volunteer Provider
   e-file Providers were associated   reinstatement. There were specific concerns regarding the
      with Volunteer Income Tax       impact on filing season readiness, the burden on E-Help
   Assistance sites. Considerable     Desk staff, and the burden on volunteers. The Stakeholder
     resources were expended to       Partnerships, Education, and Communication function
   obtain missing Forms 8453 and
       reinstate these Providers.     agreed to assist the Submission Processing function with
                                      the collection and submission of the missing Forms 8453.
In return, the Submission Processing function would initiate a batch processing to reactivate the
compliant volunteer Providers. Of the original 1,140 volunteer Providers suspended,
1,119 (98 percent) were submitted for reinstatement. These Providers were reinstated on
December 28, 2006, which required the expending of additional resources by the Stakeholder
Partnerships, Education, and Communication and the Submission Processing functions.

IRS assistors were often unable to access the primary computer system needed
to reinstate suspended e-file Providers
The Employee User Portal is an internal computer portal that allows IRS employees to access
business applications and data. IRS assistors were often unable to access the Employee User
Portal, which is needed to reinstate suspended e-file Providers, because the system was
unavailable.
The Wage and Investment Division Submission Processing function reported its concern about
the unavailability of the Employee User Portal to the Modernization and Information Technology
Services organization. In January 2007, the Submission Processing function was unable to
certify that it was ready for the upcoming filing season. In the Filing Season Readiness Plan,
Submission Processing function officials stated they had taken appropriate actions to ensure a
successful 2007 Filing Season, but uncertainty regarding the Employee User Portal availability
posed “huge concerns for a successful filing season.”
The IRS also reported in the Wage and Investment Division Business Performance Review
report9 (dated February 28, 2007) that during December 2006 the Employee User Portal had an


8
  The IRS Volunteer Income Tax Assistance Program originated in 1969 and provides no-cost Federal tax return
preparation and electronic filing to specific underserved segments of individual taxpayers.
9
  The Business Performance Review report shows the collection and use of measurement information and details on
performance measures.
                                                                                                        Page 5
                       Suspended E-File Providers Were Not Adequately Assisted
                          With Reinstatement of Electronic Filing Privileges



availability rate of only 62 percent. The total impact of the unavailability of this Portal during
October 2006 through February 2007 was a loss of more than 18,000 hours of productivity.
Figure 2 presents a breakdown of productivity loss by Campus.
                         Figure 2: Productivity (Hours) Lost Due to the
                           Unavailability of the Employee User Portal

                                                Andover         Austin           Total
                          Month/Year             Impact         Impact         Impact10
                       October 2006                1,110            459           1,569
                       November 2006               3,135          2,033           5,168
                       December 2006               2,440          3,499           5,939
                       January 2007                2,428          1,943           4,371
                       February 2007                 214          1,450           1,664

                       Total Impact                                              18,711
                      Source: IRS Business Strategy and Business Architect office. The data
                      included in Figure 2 were provided by the IRS; the data are presented
                      for perspective only and were not audited.

IRS employees use the Employee User Portal to access e-file Providers’ information and to
reinstate suspended Providers. The E-Help Desk Program assists Providers with electronic
services (e.g., filing), which includes taking calls from Providers that are suspended and assisting
them with reinstatement. Providers that contacted the E-Help Desk for assistance with
reinstatement experienced longer calls and longer hold times than during the same period last
year11 because the employees could not access the Employee User Portal.
During the period October 2006 through January 2007, the IRS answered 126,874 calls at all
4 E-Help Desk call sites,12 yet the number of calls that came into the E-Help Desks totaled
225,481; thus, over 98,000 calls went unanswered. Figure 3 compares key measures for the
E-Help Desk Program at the Andover and Austin Campuses for the months of October through
January in Fiscal Years 2006 and 2007.




10
   Total impact is the hours of lost productivity. In Figure 2, hours multiplied by the number of employees do not
equal Total Impact because the Total Impact is calculated daily based on the total hours the Employee User Portal is
unavailable multiplied by the number of employees affected.
11
   October 2005 through January 2006.
12
   A comparison of calls received versus calls answered cannot be made for specific E-Help Desk sites because the
IRS routes calls nationwide to one of the four sites.
                                                                                                            Page 6
                         Suspended E-File Providers Were Not Adequately Assisted
                            With Reinstatement of Electronic Filing Privileges



                  Figure 3: E-Help Desk Program Key Measures Comparison
                                (for October through January)

                                   Andover Campus                                   Austin Campus

       E-Help Desk
                        Fiscal Year    Fiscal Year     Percentage      Fiscal Year     Fiscal Year     Percentage
        Measures
                           2006           2007          Change            2006            2007          Change

 Services
                            77,127        56,504            -27%          59,435           45,078          -24%
 Provided13
 Average Handle
                               6.85        11.29            +65%            7.50              9.47         +26%
 Time (minutes)14
 Average Talk
                               3.96         5.73            +45%            4.73              6.05         +28%
 Time (minutes)15
 Average Hold
                                .29           .44           +52%              .33              .46         +39%
 Time (minutes)16
 Average Wrap
                               2.60         5.12            +97%            2.44              2.96         +21%
 Time (minutes)17
Source: IRS Business Strategy and Business Architect office. The data included in Figure 3 were provided by the IRS;
the data are presented for perspective only and were not audited.

  Procedures for working undelivered Warning and Suspension Letters are not
  consistent
  Assistors who answered calls from suspended e-file Providers noted that a number of Providers
  stated they had not received their Warning and/or Suspension Letters. The e-file Units in the
  Andover and Austin Campuses did not follow the same process when Warning and Suspension
  Letters were returned as undeliverable. When undelivered Warning and Suspension Letters were
  received by the Andover Campus e-file Unit, employees attempted to contact the Providers by
  telephone to obtain updated addresses. The Austin Campus e-file Unit did not attempt to contact
  the Providers to obtain updated addresses. Instead, the Unit just filed the undeliverable Letters in
  the respective Providers’ case folders maintained in the Unit.
  The Andover Campus e-file Unit does not track the number of undelivered Letters. However,
  the Austin Campus Unit reported 2,043 Warning and Suspension Letters were returned as
  undeliverable.


  13
     Services Provided represents the number of calls answered by the E-Help Desk for which a service was provided.
  14
     Average Handle Time is equal to Talk Time plus Hold Time plus Wrap Time.
  15
     Average Talk Time is the average amount of time the caller spent on the telephone with the assistor.
  16
     Average Hold Time is the average amount of time the caller was on hold after getting through to an assistor.
  17
     Average Wrap Time is the average amount of time the assistor took to document the call after the call ended.
                                                                                                            Page 7
                      Suspended E-File Providers Were Not Adequately Assisted
                         With Reinstatement of Electronic Filing Privileges



IRS e-file Application and Participation (Publication 3112) states that e-file Providers must
revise their Applications to Participate in the IRS e-file Program (Form 8633) within 30 calendar
days of a change to any information on their current applications. Publication 3112 also states
that, if the IRS does not have current addresses for Providers, the Providers may not receive
important letters.
Guidelines for handling undelivered correspondence to
e-file Providers require e-file Unit employees to call the                 When Warning and/or
Providers to try to obtain more current addresses. If                    Suspension Letters were
                                                                           returned to the IRS as
assistors are able to reach the Providers, they are to                undeliverable, assistors did not
update IRS files with the new addresses and reissue the                always try to contact the e-file
correspondence. If assistors are unable to reach the                      Providers to obtain new
Providers, they are to place the Providers in an inactive                       addresses.
status.
However, guidelines relating to undeliverable Warning and Suspension Letters do not require
assistors to attempt to contact the e-file Providers. The guidelines instruct assistors to issue a
Suspension Letter to Providers that have 2 or more percent missing or unsigned Forms 8453 and
have not replied to Warning Letters. For Suspension Letters returned as undeliverable, assistors
are instructed to file the undelivered Suspension Letters in the Providers’ folders maintained in
the e-file Unit.

Eliminating the use of Form 8453 by requiring a PIN would save the IRS
significant resources
Issues relating to Form 8453 filing requirements (including processing the Forms, generating
Warning Letters to e-file Providers, suspending Providers, and processing appeals) would be
addressed if, as we had recommended in a September 2006 report,18 the IRS mandated the use of
a PIN. Implementation of this recommendation would have eliminated the required use of the
Form 8453. We had calculated the IRS could save $1.83 million in processing costs (cost
savings calculation did not include mailouts, assistance with answering questions, and/or
working appeals) if Form 8453 was eliminated.
In making the recommendation, we noted that it was consistent with the proposals of IRS
management in the Electronic Tax Administration function. Their proposals included ideas to
reduce the number of missing Forms 8453 and included the following:
     •   Enable the taxpayer to create a PIN signature through the IRS web site (IRS.gov).
     •   Create a telephone line for the sole purpose of providing the information a taxpayer
         would need to create a PIN.

18
  Requiring Personal Identification Numbers for Electronically Filed Returns Could Improve Tax Administration
and Reduce Costs (Reference Number 2006-30-160, dated September 20, 2006).
                                                                                                        Page 8
                        Suspended E-File Providers Were Not Adequately Assisted
                           With Reinstatement of Electronic Filing Privileges



     •   Mandate the use of PINs on tax returns prepared on IRS computers.
     •   Mandate the use of PINs by consortiums.19
     •   Mandate the use of PINs by e-file Providers.
However, the Commissioner, Wage and Investment Division, disagreed with our
recommendation (and associated outcome measure) to eliminate the use of Form 8453 as a
signature document and mandate the use of PINs, whenever possible, for the following reasons:
     •   Mandating the use of PINs could result in a larger volume of paper returns that would
         cost more to process than the savings generated from not processing the Forms 8453.
     •   The 1040 Modernized e-File Program will be implemented over a 3-year period starting
         in 2009. This Program will allow for new methods of electronic signatures and the
         attachment of Portable Document Format (i.e., PDF) files for third-party signatures.
         With full implementation, the Form 8453 should become obsolete.
The Commissioner, Wage and Investment Division, stated that the IRS would continue to
improve the current Form 8453 process. For example, the IRS is exploring earlier processing of
Forms 8453, more efficient letter sequencing to request missing Forms 8453, and use of the
Tax Return Database20 for timelier letter mailouts. The IRS will also send taxpayers and
e-file Providers multiple signature compliance letters.
However, the IRS provided no empirical data to support its contention that mandating the use of
PINs could result in larger volumes of paper returns. With the advent of automated teller
machines, debit cards, and online banking, the use of PINs has become commonplace. It seems
unlikely that taxpayers who have experienced the advantages of filing electronically would
return to filing paper returns because they were required to use a PIN. In our opinion, the steps
discussed by the IRS to improve the current Form 8453 process may help but will not eliminate
the problems associated with requiring Forms 8453, including burden to taxpayers (particularly
when the IRS loses the Forms) and the inequitable treatment of taxpayers. Also, the steps will
not reduce the increased costs associated with processing Forms 8453.




19
   Consortiums are members of the Free File Alliance that provide free electronic filing services to taxpayers that
meet certain criteria.
20
   The Tax Return Database contains tax return source information for all electronically filed tax returns. It also
contains electronically filed tax forms. It is the legal repository for all electronically filed returns for Tax Year 1998
and beyond. Beginning with Tax Year 2002, it also contains transcribed portions of paper returns.
                                                                                                                  Page 9
                   Suspended E-File Providers Were Not Adequately Assisted
                      With Reinstatement of Electronic Filing Privileges



Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Reconsider eliminating the use of Form 8453 as a signature document
and mandate the use of a PIN. At a minimum, this should be required for Volunteer Income Tax
Assistance sites.
       Management’s Response: IRS management agreed with this recommendation.
       Initially, management will develop a comprehensive action plan to pursue mandating the
       use of PINs by Electronic Return Originators for the 2008 Filing Season. Management
       will also evaluate mandating PIN usage by online filers in the 2009 Filing Season.
Recommendations 2 through 4 were contingent upon whether the Wage and Investment Division
agreed with Recommendation 1. They are no longer applicable because IRS management has
agreed to eliminate the use of Form 8453 as a signature document.
Recommendation 2: Ensure the Warning and Suspension Letters are issued timely.
Recommendation 3: Continue to monitor the availability of the Employee User Portal and
continue raising concerns about system availability to representatives from the Modernization
and Information Technology Services organization.
Recommendation 4: Revise guidelines for handling undeliverable Warning and Suspension
Letters to require assistors to attempt to contact e-file Providers by telephone to obtain new
addresses.




                                                                                        Page 10
                       Suspended E-File Providers Were Not Adequately Assisted
                          With Reinstatement of Electronic Filing Privileges



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine why the IRS experienced a backlog of
suspended electronic-file Providers prior to the start of the 2007 Filing Season.1 The audit was
initiated because of a complaint received by the Treasury Inspector General for Tax
Administration regarding the timeliness of IRS assistance in reinstating e-file Providers that had
been suspended because of noncompliance with U.S. Individual Income Tax Declaration for an
IRS e-file Return (Form 8453) submission requirements. To accomplish our objective, we:
I.      Determined if the IRS experienced a significant backlog of suspended e-file Providers
        just prior to the 2007 Filing Season by interviewing appropriate IRS management and
        obtaining and analyzing statistical reports for the Form 8453 program.
II.     Determined what factors contributed to the backlog.
        A. Identified factors that resulted in the untimely issuance of Warning Letters
           (Letter 2750) and Suspension Letters (Letter 2752) to e-file Providers with missing
           Forms 8453.
        B. Identified Employee User Portal2 problems (instability and downtime).
        C. Identified how inaccurate Provider addresses contributed to the backlog.
III.    Determined if the IRS adequately planned resources to address e-file Providers that were
        suspended as a result of noncompliance with the Form 8453 requirements.
        A. Obtained and reviewed the Submission Processing function workplans for the
           e-file Units in the Andover, Massachusetts, and Austin, Texas, Campuses3 for Fiscal
           Year 2006 and Calendar Year 2007.
        B. Obtained and reviewed workplans for the E-Help Desk for Fiscal Years 2006 and
           2007 to determine if the Business Architect and Business Strategist office planned
           additional resources to handle the increase in telephone calls from the issuance of
           Warning and Suspension Letters for missing Forms 8453.



1
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
2
  The Employee User Portal is the primary computer system used by IRS employees to access an e-file Provider’s
information and to reinstate a suspended Provider.
3
  Campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct errors,
and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                          Page 11
           Suspended E-File Providers Were Not Adequately Assisted
              With Reinstatement of Electronic Filing Privileges



C. Determined if additional resources were scheduled and the impact on providing
   quality customer service to suspended Providers.




                                                                              Page 12
                  Suspended E-File Providers Were Not Adequately Assisted
                     With Reinstatement of Electronic Filing Privileges



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Russell Martin, Audit Manager
Pamela DeSimone, Lead Auditor
Jerry Douglas, Auditor




                                                                                   Page 13
                  Suspended E-File Providers Were Not Adequately Assisted
                     With Reinstatement of Electronic Filing Privileges



                                                                             Appendix III

                          Report Distribution List

Acting Commissioner C
Office of the Commissioner - Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Electronic Tax Administration, Wage and Investment Division SE:W:ETA
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Controls OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 14
      Suspended E-File Providers Were Not Adequately Assisted
         With Reinstatement of Electronic Filing Privileges



                                                    Appendix IV

U.S. Individual Income Tax Declaration for an
         IRS e-file Return (Form 8453)




                                                          Page 15
     Suspended E-File Providers Were Not Adequately Assisted
        With Reinstatement of Electronic Filing Privileges



                                                   Appendix V

Management’s Response to the Draft Report




                                                         Page 16
Suspended E-File Providers Were Not Adequately Assisted
   With Reinstatement of Electronic Filing Privileges




                                                    Page 17
Suspended E-File Providers Were Not Adequately Assisted
   With Reinstatement of Electronic Filing Privileges




                                                    Page 18
